Report No. DODIG-2013-020               November 9, 2012




   Independent Auditor's Report of FY 2011 Department
      of State Funds Transferred to DoD for Human
       Immunodeficiency Virus / Acquired Immune
             Deficiency Syndrome Prevention
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AIDS                          Acquired Immune Deficiency Syndrome
ASD(Health Affairs)           Assistant Secretary of Defense for Health Affairs
DFAS                          Defense Finance and Accounting Service
DHAPP                         DoD HIV/AIDS Prevention Program
DoS                           Department of State
FAD                           Funding Authorization Document
HIV                           Human Immunodeficiency Virus
HJF                           Henry M. Jackson Foundation for the Advancement of
                                Military Medicine
MHRP                          Military HIV Research Program
MOA                           Memorandum of Agreement
NHRC                          Naval Health Research Center
OGAC                          Office of the U.S. Global AIDS Coordinator
PEPFAR                        President’s Emergency Plan for AIDS Relief
USAMRAA                       U.S. Army Medical Research Acquisition Activity
USD(Comptroller)              Under Secretary of Defense (Comptroller)
WRAIR                         Walter Reed Army Institute of Research
                                INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500



                                                                        November 9, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE PERSONNEL AND
                 READINESS
              ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              DEPARTMENT OF STATE OFFICE OF THE U .S. GLOBAL
                 AIDS COORD INA TOR

SUBJECT:· Independent Auditor' s Report ofFY 20 ll Department of State Funds
          Transferred to DoD for Human Immunodeficiency Virus I Acquired
          Immune Deficiency Syndrome Prevention
          (Report No. DODIG-20 13-020)

We are providing this report for information and use . No written response to this report
was required. Therefore, we are publishing this report in final form .

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 329-5945).


                                               c~~rv(';MM-
                                              LorinT. Venable, CPA
                                              Acting Assistant Inspector General
                                              DoD Payments and Accounting Operations
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500



                                                                        November 9, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE PERSONNEL AND
                 READINESS
              ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              DEPARTMENT OF STATE OFFICE OF THE U.S. GLOBAL
                 AIDS COORDINATOR

SUBJECT: Independent Auditor’s Report of FY 2011 Department of State Funds
         Transferred to DoD for Human Immunodeficiency Virus / Acquired
         Immune Deficiency Syndrome Prevention
         (Report No. DODIG-2013-020)

Public Law 111-117, “The Continuing Appropriations Act, 2010,” under Division F,
“Department of State, Foreign Operations, and Related Programs Appropriations Act of
2010,” December 16, 2009, appropriated funds to the Department of State (DoS) for the
purpose of Human Immunodeficiency Virus (HIV)/Acquired Immune Deficiency
Syndrome (AIDS) prevention, treatment, control, and research (to include development
of programs and assisting communities). Further, this public law requires the inspector
general of each agency receiving funds to perform periodic program and financial audits
of the use of such funds.

The DoS Office of the U.S. Global AIDS Coordinator (OGAC) entered into a
Memorandum of Agreement (MOA) with DoD to transfer FY 2011 funds appropriated
under the DoS Foreign Operations and Related Programs Appropriations Act. The
purpose of the MOA is to fund efforts to achieve the HIV/AIDS prevention, care, and
treatment goals of the U.S. Leadership Act and the President’s Emergency Plan for AIDS
Relief (PEPFAR). Two DoD programs—the DoD HIV/AIDS Prevention Program
(DHAPP) and the Military HIV Research Program (MHRP)—receive PEPFAR funds
provided from DoS. See the Attachment for additional background and MOA
information.

We performed this review-level attestation in accordance with attestation standards
established by the American Institute of Certified Public Accountants and in compliance
with generally accepted government auditing standards. Those standards require that we
plan and perform the attestation to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our attestation objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our attestation objective. A review-level attestation is substantially
less in scope than an examination done to express an opinion on the subject matter.
Accordingly, we do not express such an opinion.
We reviewed $1,919,749 (99.7 percent) of the $1,926,037 in DoD disbursements, as of
May 30, 2012. We non-statistically selected $504,584 (98.8 percent) of the $510,872 in
DHAPP disbursements and all $1,415,165 (100 percent) of the MHRP disbursements.
See the table below for a summary of DHAPP and MHRP funding, disbursements, and
DoD Office of Inspector General (OIG) sample selection.

 Table. Summary of DHAPP and MHRP FY 2011 Funding, Disbursements, and
                        DoD OIG Sample Selection
    Program         Total Funding          Total       DoD OIG Sample
                                     Disbursements*       Selection
DHAPP                   $54,764,348           $510,872         $504,584
MHRP                    $83,737,405         $1,415,165       $1,415,165
  Total                $138,501,753         $1,926,037       $1,919,749
*As of May 30, 2012.

Based on our review of DHAPP and MHRP disbursements, nothing came to our attention
that caused us to believe that FY 2011 funds transferred from DoS to DoD for HIV and
AIDS prevention, care, and treatment were not disbursed in accordance with the goals set
forth in the U.S. Leadership Act and PEPFAR.

However, during our testing at MHRP, we noted three minor weaknesses related to
MHRP activity. These items did not affect our overall conclusions. Specifically, we
noted:

    •   Walter Reed Army Institute of Research (WRAIR), MHRP, and U.S. Army
        Medical Research Acquisition Activity (USAMRAA) used an incorrect Line of
        Accounting in the cooperative agreement with the Henry M. Jackson Foundation
        for the Advancement of Military Medicine (HJF) from FY 2008 through
        FY 2011. Based on our review, USAMRAA and HJF modified the cooperative
        agreement on September 22, 2012, to correct the Line of Accounting.

    •   WRAIR and MHRP did not track PEPFAR funding by unique Accounting
        Process Code and fiscal year appropriations. This task of tracking funds to the
        correct Accounting Process Code and appropriation will prove to be essential as
        appropriations shift from no-year funds to 5-year funds in FY 2012. * Based on
        our review, USAMRAA and HJF modified the cooperative agreement on
        September 22, 2012, to correct how HJF submits invoices.




*
 Congress established the FY 2011 funds as no-year funds; however, subsequent years will
be established as 5-year funds.


                                            2
    •   USAMRAA did not submit invoices i'eceived in April and May 2012 to the
        Defense Finance and Accounting Service (DFAS) for payment, as of August 30,
        2012. The cooperative agreement states, "[i]nvoices will be forwarded to DFAS
        and payments will be made within 30 days from the date of receipt at the billing
        office of a proper invoice."

        According to USAMRAA personnel, they did not submit the invoices to DFAS
        for payment because they were working with MHRP and HJF to modifY the
        cooperative agreement to correct the Line of Accounting and update how HJF
        prepares invoices. On September 22, 2012, USAMRAA and HJF modified the
        cooperative agreement to correct the Line of Accounting and update how HJF
        prepares the invoices. DFAS paid the April and May 2012 invoices, as of
        October 23, 2012.

We coordinated a discussion draft of this report with officials from Assistant Secretary of
Defense (Health Affairs) (ASD [Health Affairs]), U.S. Army Medical Research Materiel
Command, USAMRAA, WRAIR, and the Naval Health Research Center (NHRC). They
provided editorial and technical comments on the contents of the report. We made minor
revisions to the report as necessary based on the comments.

This report is intended solely for the information and use of the ASD (Health Affairs),
WRAlR, and NHRC and is not intended to be and should not be used by anyone else.
However, this report is a matter of public record, and its distribution is not limited.



                                            o(~TV~
                                             LorinT. Venable, CPA
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations


Attachment:
As stated




                                            3
Attachment. Program Background and Flow
of Funds From DoS OGAC to DoD
Public Laws
Public Law 108-25, “United States Leadership Against HIV/AIDS, Tuberculosis, and
Malaria Act, 2003,” May 27, 2003, establishes a 5-year emergency plan for AIDS relief,
known as the PEPFAR, to confront HIV/AIDS with the goals of preventing, treating, and
providing humane care for millions of people suffering from HIV/AIDS.

Public Law 110-293, “Tom Lantos and Henry J. Hyde United States Global Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act, 2008,” July 30,
2008, amended Public Law 108-25. The purpose of this public law is to strengthen and
enhance the United States response to the HIV/AIDS pandemic and other preventable
infectious diseases.

Public Law 111-117, “The Continuing Appropriations Act, 2010,” under Division F,
“Department of State, Foreign Operations, and Related Programs Appropriations Act of
2010,” December 16, 2009, appropriates funds to DoS for the purpose of HIV/AIDS
prevention, treatment, control, and research (to include development of programs and
assisting communities). Further, this public law requires the inspector general of each
agency receiving funds to perform periodic program and financial audits of the use of
such funds.

FY 2011 Memorandum of Agreement Between DoS and DoD
The MOA requires DoD to contribute to a number of reports on the progress of their
PEPFAR programs and the use of the funds allocated to DoD. Additionally, the MOA
requires DoD to keep thorough records and use the funds in accordance with generally
accepted U.S. Government accounting principles.

DoS OGAC provided initial funding in the MOA and additional funding in subsequent
amendments. See the table below for a summary of the amount of funding provided from
DoS to DoD.

  Table. Summary of the Dates and Funding Amounts for the FY 2011 MOA and
                          Subsequent Amendments

                            Date Signed            Funding Amount             Cumulative
                                                                               Funding
Original MOA              April 11, 2011                  $7,462,620              $7,462,620
Amendment 1                July 11, 2011                 $51,515,113             $58,977,733
Amendment 2             September 28, 2011               $79,524,020            $138,501,753
Amendment 3*              May 25, 2012                    $9,530,095            $148,031,848
*As of May 30, 2012, DHAPP and MHRP had not yet received the funding from Amendment 3.



                                               4
DoD HIV/AIDS Prevention Program
DHAPP is the DoD PEPFAR executive agent. In this capacity, DHAPP is the day-to-day
director of DoD PEPFAR programs and its responsibilities include budget guidance and
oversight, acquisition and contracting programs, and the submission of periodic reports to
OGAC. DHAPP’s mission is to reduce the incidence of HIV/AIDS among uniformed
personnel and to maximize their programs impact to support the development of
interventions and programs that address the causes of the HIV/AIDS military epidemic in
select countries.

DHAPP is under the command of NHRC in San Diego, California. In addition, DHAPP
used the Naval Supply Systems Command Fleet Logistics Centers to administer their
contracts and grant agreements.

As of May 30, 2012, DHAPP received $54,764,348 in funding for their PEPFAR
activities under the FY 2011 MOA. DHAPP obligated $609,484 and disbursed $510,872
of the funds.

U.S. Military HIV Research Program
MHRP, the second program receiving funds, is a partner in international efforts to
combat HIV and it has a dual mission to develop a preventive HIV vaccine for
U.S. military personnel and for the global community. The program provides prevention,
care, and treatment through the PEPFAR, including international laboratory and clinical
research capabilities. DHAPP provides oversight of the MHRP.

MHRP fell under the command of WRAIR in Silver Spring, Maryland. MHRP used a
cooperative partner, HJF, to obligate FY 2011 Army PEPFAR funds. In addition, MHRP
used USAMRAA for contracting and assistance agreement purposes.

As of May 30, 2012, MHRP received $83,737,405 in funding for their PEPFAR activities
under the FY 2011 MOA. MHRP obligated $26,707,267 and disbursed $1,415,165 of the
funds.

Flow of Funds
DoS officials submitted a Standard Form 1151, “Non-Expenditure Transfer
Authorization,” to the Department of Treasury, which started the transfer of FY 2011
PEPFAR funds from DoS to DoD. DoD transferred funds within the department through
funding authorization documents (FADs).

To be specific, the DoS used the SF 1151 to transfer the FY 2011 PEPFAR funds to the
Under Secretary of Defense (Comptroller) [USD (Comptroller]). The USD
(Comptroller) transferred the funds to ASD (Health Affairs) using a FAD. At the ASD
(Health Affairs) level, the FY 2011 PEPFAR funds were split between the Navy and
Army based on the MOA. Utilizing another FAD, the ASD (Health Affairs) transferred
the Navy’s funds to the Navy Bureau of Medicine and, then, Surgery and transferred the
Army’s funds to the U.S. Army Medical Command. The Navy and Army used additional
FADs to transfer funds within their organizations. For example, the Navy Bureau of


                                            5
Medicine and Surgery used a FAD to transfer funds to the Navy Medicine Support
Command and the Navy Medical Research Center. The Navy Medical Research Center
then transferred the FY 2011 PEPFAR funds to NHRC using a memorandum referred to
as the Operational Target Authority memo. In contrast, U.S. Army Medical Command
used only one FAD for each transfer of funds to WRAIR.

The figure below illustrates the flow of funds from DoS to the DoD programs at NHRC
and WRAIR.


                     Figure. Flow of Funds to DHAPP and MHRP

                                        Department of State



                                     Department of Treasury



                                        OUSD (Comptroller)



                                     OASD (Health Affairs)



      Navy Bureau of Medicine and Surgery                     U.S. Army Medical Command



       Navy Medicine Support Command                               WRAIR/MHRP



         Navy Medical Research Center



                NHRC/DHAPP




Source: DoD OIG




                                                6
